OIG Investigative Reports Press Release, Southfield. MI 11/15/2012 - Former River Rouge School Official Convicted of Bribery
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFFICE
EASTERN DISTRICT OF MICHiGAN
NEWS
Former River Rouge School Official Convicted of Bribery
FOR IMMEDIATE RELEASE
November 15, 2012
A former River Rouge School District official was found guilty today of bribery and mail fraud by a federal jury in Detroit, United States Attorney Barbara McQuade announced today.
Dolores Reid, 53, of Southfield, the school district's former Director of State and Federal Programs, was convicted following a two-day trial before United States District Judge Bernard A. Friedman.
The evidence presented at trial showed that in 2010 and 2011, Ms. Reid accepted thousands of dollars in cash for giving preferential treatment to a company that provided tutoring services to the River Rouge School District, under the Supplementary Educational Services provision of the No Child Left Behind Act. This company received federal funds through the Michigan Department of Education, which subsequently recaptured the funds, leaving the River Rouge School District with a loss of approximately $160,000.
The evidence further showed that Ms. Reid promoted the company's tutoring by falsely informing parents of students entering River Rouge High School that the program was mandatory.
Special Agent in Charge Robert D. Foley III stated, "Public officials who abuse their power and accept bribes will face severe consequences for their crimes. The FBI Led Detroit Area Public Corruption Task Force is committed to ensuring citizens have honest government."
"Corruption by public officials is never acceptable, but it is particularly egregious when an official steals money intended for the education of school children," McQuade said. "Stealing education funds robs children of their future."
Sentencing of Ms. Reid is scheduled for March 19, 2013. The bribery charge has a statutory maximum sentence of 10 years' imprisonment and a $250,000 fine. The mail fraud charge has a statutory a maximum sentence of 20 years' imprisonment and a $250,000 fine. Both charges are felonies.
The case was investigated by agents of the Federal Bureau of Investigation, the U.S. Department of Education - Office of Inspector General, and the Michigan Attorney General's Office.
Top
Printable view
Last Modified: 11/27/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov